No. 20-639
In the

Supreme Court of the United States
__________________

CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
v.
STEVE SISOLAK, GOVERNOR OF NEVADA, et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________
RESPONDENTS’ BRIEF IN OPPOSITION
__________________
AARON D. FORD
Attorney General of Nevada
HEIDI PARRY STERN*
Solicitor General
CRAIG NEWBY
Deputy Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Respondents
January 19, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether Directive 021 violates the Free Exercise
Clause.
2. Whether Directive 021 violates the Free Speech
and Assembly Clauses.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
This Court’s Opinion in Roman Catholic
Diocese . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
The Ninth Circuit’s Opinion in Calvary
Chapel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
This Court’s Subsequent Orders Regarding
Similar Occupancy Restrictions . . . . . . . . . . . . . . 7
REASONS FOR DENYING THE PETITION. . . . . 10
I.

The Petition Is Moot Because Calvary
Already Received the Relief it Sought
Through the Petition . . . . . . . . . . . . . . . . . . . 10

II.

This Court’s Decision in Roman Catholic
Diocese Does Not Displace Application of the
Strict Scrutiny Standard. . . . . . . . . . . . . . . . 11

III.

The Ninth Circuit Granted Appropriate
Injunctive Relief but Recognized the Need for
Further Factual Development . . . . . . . . . . . 13

IV.

This Case Is not a Proper Vehicle for
Reviewing Issues the Ninth Circuit did not
Already Resolve in Calvary’s Favor . . . . . . . 16

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

iii
TABLE OF AUTHORITIES
CASES
Agudath Israel v. Cuomo,
No. 20A90, __ U.S. __, 2020 WL 6954120
(Nov. 25, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Agudath Israel v. Cuomo,
Docket Nos. 20-3572, 20-3590, __ F.3d __,
2020 WL 7691715 (2d Cir. Dec. 28, 2020) . . . . . . 8
Calvary Chapel Dayton Valley v. Sisolak,
591 U.S. ___, 140 S. Ct. 2603 (2020) . . . . . . . . 5, 7
Harvest Rock Church Inc. v. Newsom,
__ U.S. __, No. 20A94, 2020 WL 7061630
(Dec. 3, 2020). . . . . . . . . . . . . . . . . . . . . . 1, 8, 9, 13
High Plains Harvest Church v. Polis,
592 U.S. __ (Dec. 15, 2020) . . . . . . . . 1, 8, 9, 11, 13
Robinson v. Murphy,
592 U.S. __ (Dec. 15, 2020) . . . . . . . . . . . 1, 8, 9, 13
Roman Catholic Diocese of Brooklyn v. Cuomo,
141 S. Ct. 63 (2020). . . . . . . . . . . . . . . . . . . passim
South Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020). . . . . . . . . . . . . . . . . . . . 4, 5
Winter v. Natural Resources Defense Council, Inc.,
555 U.S. 7 (2008). . . . . . . . . . . . . . . . . . . . . . . 5, 14
CONSTITUTION
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . 1, 10, 11

iv
RULE
Sup. Ct. R. 11 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
OTHER AUTHORITIES
Associated Press, Las Vegas Hospital in Capacity
Crisis as COVID-19 Cases Soar, U.S. News, Jan.
13, 2021, https://www.usnews.com/news/beststates/nevada/articles/2021-01-13/las-vegashospital-in-capacity-crisis-as-covid-19-cases-soar
........................................ 4
Directives, https://gov.nv.gov/News/Emergency_
Orders/Emergency_Orders/ . . . . . . . . . . . . . . . . . 7
Opposition to Emergency Application for Writ of
Injunction, Gish v. Newsom, No. 20A120 (Jan.
14, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Sam Metz, Virus is pushing rural Nevada hospitals
to the brink, Las Vegas Sun, Dec. 17, 2020,
https://lasvegassun.com/news/2020/dec/17/virusis-pushing-rural-nevada-hospitals-to-the-bri/ . . . 4

1
INTRODUCTION
Petitioner Calvary Chapel Dayton Valley (Calvary)
preemptively sought the extraordinary remedy of a
writ of certiorari before judgment on two broadly stated
First Amendment questions, while challenging
Directive 021. Pet. at i. This Court, in Roman Catholic
Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63 (2020)
(Roman Catholic Diocese), has since resolved one of
those questions in Calvary’s favor and has remanded
analogous cases to the district courts for further
development. See High Plains Harvest Church v. Polis,
592 U.S. __ (Dec. 15, 2020); Robinson v. Murphy, 592
U.S. __ (Dec. 15, 2020); Harvest Rock Church Inc. v.
Newsom, __ U.S. __, No. 20A94, 2020 WL 7061630
(Dec. 3, 2020).
Here, applying Roman Catholic Diocese, the Ninth
Circuit reversed the district court’s order that denied
Calvary’s motion for preliminary injunction. Pet. App.
1b-11b. Yet the Ninth Circuit did not stop there.
Despite noting that the issue has not been addressed in
the district court, the court of appeals granted Calvary
specific injunctive relief, enjoining Nevada Governor
Steve Sisolak “from imposing attendance limitations on
in-person services in houses of worship that are less
favorable than 25% of the fire-code capacity.” Pet. App.
11b; see also Pet. App. 2b n.1.
For these reasons, this case is now far removed from
the questions presented in the petition. And the
extraordinary remedy of a writ of certiorari before
judgment is now unnecessary, if it was ever warranted
at all.

2
Emboldened by the change in circumstances,
however, Calvary has used its reply brief to suggest
this Court should take up the Ninth Circuit’s
intervening opinion because, according to Calvary, the
lower court did not go far enough in granting
preliminary injunctive relief. That question, however,
is not presented by the petition. Pet. at i. Even if it
were, Calvary reads too much into Roman Catholic
Diocese. This case is a poor vehicle for addressing
questions beyond those the Ninth Circuit already
resolved in Calvary’s favor.
Calvary urges this Court to read Roman Catholic
Diocese as holding that not treating houses of worship
the same as their “best treated comparators” is
unconstitutional per se. Reply at 6-8. Not so. This
Court did not disavow application of the strict scrutiny
standard; it applied that standard before concluding
the petitioners there had shown a likelihood of success
on the merits. Roman Catholic Diocese, 141 S. Ct. at
66-67.
This case also lacks the necessary evidentiary
record to adequately address issues beyond those that
the Ninth Circuit already resolved in Calvary’s favor.
First, despite this Court’s recognition that New York’s
restrictions were “far more restrictive” than Directive
021, the Ninth Circuit did more than enjoin Directive
021. Id. at 67. It granted a prospective injunction that
limits Nevada’s ability to impose directives on
attendance limits for religious services going forward,
which the Ninth Circuit tied to Nevada’s current
limitations for comparable secular gatherings. Pet.
App. 2b n.1, 11b. The scope of that injunction, which is

3
what Calvary now wishes to challenge, is reviewed for
an abuse of discretion.
Recognizing the obvious need for more complete
development of the record, the Ninth Circuit grabbed
what it perceived to be the low-hanging fruit—e.g. that
Nevada may not treat other gathering places more
favorably than houses of worship—and remanded,
expressly permitting the district court to modify the
injunction within the parameters set by the court’s
opinion and relevant equitable principles. Pet. App.
11b. The case-specific, fact-bound question of whether
the Ninth Circuit abused its discretion does not
warrant this Court’s review, particularly before the
parties have an opportunity to develop the record. Pet.
App. 11b.
Second, defining proper comparators is relevant to
deciding whether a restriction is neutral and to
applying strict scrutiny. See Roman Catholic Diocese,
141 S. Ct. at 66-67. Assuming, without conceding, the
need to apply strict scrutiny in comparing indoor
worship services to retail stores, manufacturing, and
professional services, this Court has already held that
addressing COVID-19 is a compelling government
interest. See Roman Catholic Diocese, 141 S. Ct. at 67.
This leaves the issue of narrow tailoring open in
assessing whether Calvary can show a likelihood of
success on the merits. Additionally, Calvary must
establish irreparable harm and that the public interest
favors their requested injunctive relief.
These are all inherently fact-bound questions. Just
as this Court has accorded California, Colorado, and
New Jersey, an opportunity to further develop the

4
record on similar issues in light of Roman Catholic
Diocese, it should do the same for Nevada. This Court
should deny the petition. 1
STATEMENT OF THE CASE
Relying upon Chief Justice Roberts’ concurring
opinion in South Bay United Pentecostal Church v.
Newsom, 140 S. Ct. 1613 (2020), the district court
denied a preliminary injunction without prejudice,
concluding that Directive 021 was neutral and
generally applicable. Pet. App. 1a-12a. Calvary
appealed, and unsuccessfully sought injunctive relief
pending the outcome of the appeal from the Ninth
Circuit and this Court. Pet. App. 19a-46a.
Undeterred, Calvary filed its petition for writ of
certiorari before judgment the first week of November.
Now, more than two months removed from Calvary
filing its petition, the relevant legal landscape and the
procedural posture of this case have changed
materially.

1

Like California, Nevada is facing challenges with hospital
capacity as a result of a recent COVID-19 surge. Associated Press,
Las Vegas Hospital in Capacity Crisis as COVID-19 Cases Soar,
U.S. News, Jan. 13, 2021, https://www.usnews.com/news/beststates/nevada/articles/2021-01-13/las-vegas-hospital-in-capacitycrisis-as-covid-19-cases-soar. And the issue has impacted rural
parts of the state too. See Sam Metz, Virus is pushing rural
Nevada hospitals to the brink, Las Vegas Sun, Dec. 17, 2020,
https://lasvegassun.com/news/2020/dec/17/virus-is-pushing-ruralnevada-hospitals-to-the-bri/.

5
This Court’s Opinion in Roman Catholic Diocese
On the eve of Thanksgiving, this Court issued a per
curiam opinion in Roman Catholic Diocese. There, this
Court specifically recognized that the New York
directives considered in that case were “far more
restrictive” of religious worship than the Nevada
directive Calvary challenges here. Id. at 4;2 cf. Calvary
Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2603
(2020). New York’s emergency orders restricted inperson religious services to 10- and 25-person
occupancy limits in areas classified as “red” or “orange”
zones for COVID-19 spread. Roman Catholic Diocese,
141 S. Ct. at 65-66.
In Roman Catholic Diocese, this Court based its
ruling on the factual record, created in an evidentiary
hearing in the district court. 141 S. Ct. at 66. Crucially,
that hearing provided a factual basis for this Court to
fully consider the factors required for issuing injunctive
relief under Winter v. Natural Resources Defense
Council, Inc., 555 U.S. 7, 20 (2008). Id. at 66-69. The
evidentiary record in Roman Catholic Diocese showed
that petitioner churches had an excellent safety record
2

Justice Kavanaugh, in his concurrence, specifically emphasized
that the New York order is “much more severe than most other
States’ restrictions, including the California and Nevada limits at
issue in South Bay United Pentecostal Church v. Newsom, 590 U.S.
___ (2020) and Calvary Chapel Dayton Valley v. Sisolak, 591 U.S.
___(2020).” Roman Catholic Diocese. 141 S. Ct. at 72-74
(Kavanaugh, J., concurring) (emphasis added). Chief Justice
Roberts, in his dissent, notes his agreement that the New York
order “is distinguishable from those we considered in [South Bay
and Calvary Chapel].” Id. at 75 (Roberts, C.J., dissenting
(emphasis added).

6
and were following social distancing guidelines. Id. at
67. It also revealed insufficient evidentiary support for
the severe limits placed on houses of worship as
opposed to other entities in the red and orange zones.
Id. at 67. The factual record was critical to the
examination of the most recent scientific and medical
evidence pertaining to the transmission of COVID-19.
Id. at 66-67; see also id. at 76-78, (Breyer, J.,
dissenting); id. at 79-80 (Sotomayor, J., dissenting).
Additionally, this Court zeroed in on a single
decisive factor in concluding that the petitioners had
shown a likelihood of success on the merits: that “the
maximum attendance at a religious service could be
tied to the size of the church or synagogue.” Roman
Catholic Diocese, 141 S. Ct. at 67. By failing to account
for the size of a particular house of worship in limiting
attendance for religious services, this Court concluded
that New York had not narrowly tailored its
restrictions. Id.
The Ninth Circuit’s Opinion in Calvary Chapel
Three weeks after Roman Catholic Diocese, the
Ninth Circuit issued its opinion and preliminary
injunction in this case. The court had sought
supplemental briefing on the effect of Roman Catholic
Diocese prior to oral argument. And the court applied
Roman Catholic Diocese before reversing the district
court’s decision denying injunctive relief without
prejudice. Pet. App. 7b-10b. Additionally, it awarded
Calvary prospective injunctive relief, limiting any
emergency restriction on attendance of religious
services to no less than 25% occupancy, before

7
remanding for further development consistent with its
opinion. Pet. App. 7b.
Nevada currently imposes the 25% occupancy limit
on every place of gathering, including casinos,
restaurants, bars, amusement and theme parks, gyms
and fitness facilities, and movie theaters. Pet. App. 2b
n.1. This limit also applies to general gatherings and
gatherings at private residences. The 25% occupancy
limit encompasses every gathering Calvary identified
as “comparable” in its petition. Pet. 20-27.3
No evidentiary hearing has yet taken place in the
district court and no further factual development has
taken place since this Court’s prior denial of Calvary’s
request for an injunction pending appeal. The parties
have since agreed to stay proceedings in the district
court pending resolution of this petition. Order at 5,
Calvary Chapel Dayton Valley v. Sisolak, No. 3:20-cv00303-RFB-VCF (Jan. 5, 2021) (ECF No. 65).
This Court’s Subsequent Orders Regarding
Similar Occupancy Restrictions
This Court’s orders, and subsequent orders from the
courts of appeal, examining state emergency directives
on religious services after Roman Catholic Diocese

3

In the reply, Calvary cites Directive 003 for purposes of
identifying “essential” and “non-essential” businesses in Nevada.
Reply at 6-7. Although Directive 021, which issued in May,
maintained the “essential” vs. “non-essential” dichotomy; Nevada
stopped distinguishing between “essential” and “non-essential”
businesses in Directive 033 beginning in September. That remains
true for Directive 035. Those directives are available at
https://gov.nv.gov/News/Emergency_Orders/Emergency_Orders/.

8
recognize the need for an adequate factual record. For
example, after Roman Catholic Diocese, this Court
issued a companion order in a second suit challenging
New York State’s religious attendance restrictions. See
Agudath Israel v. Cuomo, No. 20A90, __ U.S. __, 2020
WL 6954120 (Nov. 25, 2020). Upon further
consideration by the Second Circuit, that case has been
remanded for further consideration of an injunction
against enforcement of differing capacity percentage
limits. Agudath Israel v. Cuomo, Docket Nos. 20-3572,
20-3590, __ F.3d __, 2020 WL 7691715 (2d Cir. Dec. 28,
2020).
This Court has also considered three applications
for injunctive relief brought by churches challenging
COVID restrictions on attendance of worship services
since deciding Roman Catholic Diocese. High Plains
Harvest Church, 592 U.S. at __; Robinson, 592 U.S. at
__; Harvest Rock Church, No. 20A94, 2020 WL
7061630. In all of these cases, this Court converted the
application into a petition for writ of certiorari before
judgment, vacated the judgment from below, and
remanded for further consideration by the district
courts. None of the cases has resulted in this Court
issuing prospective injunctive relief before remanding
for further consideration in the district court.
Harvest Rock sought injunctive relief on California’s
COVID restrictions on religious services, including no
indoor worship services for Tier 1 counties, which
constituted most California residents. Rather than
grant injunctive relief, this Court granted certiorari
prior to judgment for purposes of remanding this case
to the district court’s consideration of Roman Catholic

9
Diocese. Harvest Rock Church, No. 20A94, 2020 WL
7061630. In High Plains and Robinson, this Court
considered applications challenging COVID restrictions
from Colorado and New Jersey. Again, in both cases,
this Court granted certiorari prior to judgment for
purposes of remanding to the district courts for
consideration of the Roman Catholic Diocese opinion.
High Plains Harvest Church, 592 U.S. at __; Robinson,
592 U.S. at __.
What has since occurred in Harvest Rock
demonstrates the need for further factual development
here. There, California has been able to establish a
record showing how COVID-19 is transmitted and
important factors to be considered in seeking to reduce
the risk of transmission: (1) the number of participants
to an activity, (2) the nature of the activity, and (3) the
location of the activity. Opposition to Emergency
Application for Writ of Injunction at 3-5, Gish v.
Newsom, No. 20A120 (Jan. 14, 2021) (summarizing the
evidentiary record developed in Harvest Rock). And
they have then been able to place those considerations
in context with the nature of their restrictions and the
dire public health crisis that California is currently
facing, while addressing them within the framework
required by Roman Catholic Diocese. Id. at 6-17, 23-25,
30-46.

10
REASONS FOR DENYING THE PETITION
A remand to the district court is necessary before
any decision by this Court will be helpful or
appropriate to establish precedent for other cases. The
Ninth Circuit already ordered a remand that provides
an opportunity for further factual development. But it
also exercised its discretion to grant Calvary interim
relief: a preliminary injunction that, consistent with
Roman Catholic Diocese, precludes (1) Nevada from
imposing numerical caps on worship services that are
untethered to the size of a particular house of worship,
and (2) Nevada from imposing an attendance limitation
of less than 25% of fire-code capacity, which is
comparable to current Nevada limitations for
comparable secular gathering locations.
This case otherwise lacks the necessary evidentiary
record for proper resolution of questions beyond those
the Ninth Circuit already decided in Calvary’s favor.
For these reasons, this Court should deny the petition.
I.

The Petition Is Moot Because Calvary
Already Received the Relief it Sought
Through the Petition.

Challenging the district court’s denial of a
preliminary injunction, the Petition presents
broadsided, facial attacks on Directive 021, asserting
that the directive is unconstitutional under the Free
Exercise, Free Speech, and Assembly clauses of the
First Amendment. Pet. at i. But “a petition for a writ of
certiorari to review a case pending in a United States
court of appeals, before judgment is entered in that
court, will be granted only upon a showing that the

11
case is of such imperative public importance as to
justify deviation from normal appellate practice and to
require immediate determination in this Court.”
Supreme Court Rule 11 (emphasis added)
This Court has since resolved the relevant Free
Exercise question. See Roman Catholic Diocese, 141 S.
Ct. at 65-69. And the Ninth Circuit, applying the
principles this Court established in Roman Catholic
Diocese, enjoined enforcement of Directive 021. Pet.
App. 11b. For those reasons, Calvary’s petition is moot;
Calvary has already obtained the relief it sought
through the petition—an order concluding that
Governor Sisolak’s “favoring of secular over religious
gatherings” violates the First Amendment and
enjoining Directive 021. High Plains Harvest, 592 U.S.
at __ (Kagan, J., dissenting) (slip op. at 1); see also Pet.
App. 1b-11b.
II.

This Court’s Decision in Roman Catholic
Diocese Does Not Displace Application of
the Strict Scrutiny Standard.

In its reply, Calvary departs from the focus its
questions presented placed on various “gatherings.”
Compare Pet. at i, 20-26; with Reply at 6-8.
Emboldened by changing circumstances, Calvary has
pivoted to challenging the Ninth Circuit’s decision,
asserting that the Free Exercise Clause and this
Court’s decision in Roman Catholic Diocese demand
that “[p]laces of worship must be treated no worse than
their best treated comparators,” as if to suggest that
restrictions that even slightly depart from any sense of
neutrality are per se unconstitutional. Reply at 6-8.
Not so.

12
Ascertaining whether a restriction is neutral and
generally applicable determines the appropriate level
of scrutiny applied to a restriction, not its
constitutionality. Roman Catholic Diocese, 141 S. Ct. at
66. The brief per curiam opinion in Roman Catholic
Diocese, which merely granted an injunction pending
appeal, does not displace the principle that restrictions
that “are not ‘neutral’ and of ‘general applicability’” still
pass constitutional muster if they meet strict scrutiny.
Id. at 66-67. This Court recognized that principle
before conducting a strict scrutiny analysis in Roman
Catholic Diocese, which then led to this Court
concluding that the petitioners had shown a sufficient
likelihood of success on the merits to obtain injunctive
relief in that case. Id.
The decisive factor this Court identified as
undermining New York’s ability to satisfy strict
scrutiny: “the maximum attendance at a religious
service could be tied to the size of the church or
synagogue.” Id. at 67. As this Court noted, New York’s
restrictions limited attendance to 10 people in “a 1,000seat church or 400-seat synagogue . . . .” Id. The Ninth
Circuit’s rule, by contrast, would allow the same church
to admit 250 people and the same synagogue to admit
100 people. And the Ninth Circuit’s limits are
proportionate to existing limits for comparable secular
gatherings in Nevada. Pet. App. 2b n.1.
Other than its overly expansive reading of Roman
Catholic Diocese, Calvary does not present any
argument supporting such a radical departure from
firmly rooted First Amendment doctrine. Reply at 6-8.

13
III.

The Ninth Circuit Granted Appropriate
Injunctive Relief but Recognized the Need
for Further Factual Development.

Since deciding Roman Catholic Diocese, this Court
has been vacating lower court decisions that denied
preliminary injunctions and remanding for further
consideration. High Plains Harvest Church, 592 U.S. at
__; Robinson, 592 U.S. at __; Harvest Rock Church, No.
20A94, 2020 WL 7061630. Here, the Ninth Circuit
followed this Court’s lead, concluding that Directive
021 must survive review under strict scrutiny because
“the Directive treats numerous secular activities and
entities significantly better than religious worship
services.” Pet. App. 9b. Despite this Court’s indication
that the restrictions in Roman Catholic Diocese were
“far more restrictive” than Directive 021, the Ninth
Circuit still reached the conclusion that strict scrutiny
applies because the Directive held many businesses to
“50% of fire-code capacity, yet houses of worship are
limited to fifty people regardless of their fire-code
capacities.” Pet. App. 9b; see also Roman Catholic
Diocese, 141 S. Ct. at 67.
Then, acknowledging that the district court had not
previously addressed the question whether Directive
021 survives strict scrutiny, the court set aside the
general practice of refraining from ruling on issues not
first passed upon by the district court. Pet. App. 9b10b. The Court ultimately concluded that, as a matter
of law, Directive 021 did not satisfy strict scrutiny
because the State could have used percentages of firecode capacity to limit attendance of in-person worship

14
services, like it had with various secular businesses.
Pet. App. 10b-11b.
Unlike this Court’s practice of merely vacating
denials of preliminary injunctions and remanding for
consideration under Roman Catholic Diocese, however,
the Ninth Circuit did not stop there. Recognizing that
a new directive is in place, which limits a laundry list
of locations for secular gatherings from exceeding 25%
of their fire-code capacity, the Ninth Circuit exercised
its discretion to enjoin Nevada from imposing limits on
attendance of in-person worship services that are less
favorable than 25% of fire-code capacity. Pet. App. 2b
n.1, 11b. Additionally, the Ninth Circuit indicated it
was leaving the district court with the authority to
modify that injunction, while encouraging the district
court to expedite any necessary proceedings for
purposes of addressing the scope of the preliminary
injunction. Pet. App. 11b.
Whether to grant a preliminary injunction is an
equitable decision within the court’s sound discretion.
Winter, 555 U.S. at 376-77. The Ninth Circuit’s
application of Roman Catholic Diocese and its
discretionary decision to grant injunctive relief does not
warrant this Court’s review. Noting (1) that judicial
officers are not public health experts, and (2) the issue
had not been developed below due to the district court
applying only a rational basis standard, the Ninth
Circuit grabbed the low-hanging fruit that it could
decide without the need for further factual
development. Pet. App. 76 n.3, 9b-10b. The Ninth
Circuit thus held that Roman Catholic Diocese requires
states to treat in-person religious services to

15
comparable secular gatherings and institutions,
including prohibiting the use of hard numerical caps on
attendance limits that are untethered to the size of a
particular house of worship. Pet App. 9b-11b.
The Ninth Circuit, however, appropriately left the
district court with the authority to provide for further
record development and modify the injunction as
appropriate. Pet. App. 11b. This point is critical. Now
that it has prevailed in the Ninth Circuit, Calvary
wants this Court to treat at least all retail stores, but
also manufacturing and professional offices, as like
comparators to houses of worship. But neither party
has had an opportunity to develop a proper evidentiary
record for review of those issues.
Since this Court decided Roman Catholic Diocese,
Calvary has not produced evidence showing that retail
stores, manufacturing facilities, and professional offices
are sufficiently like comparators to indoor in-person
worship services, nor has Nevada been given an
opportunity to develop a proper record on whether it
can justify any disparate treatment that places a
substantial burden on the right to Free Exercise and
requires review under a strict scrutiny standard.
The Ninth Circuit, as this Court has in three
analogous cases, left the district court to sort out those
more fact-specific issues. Calvary has not shown that
the Ninth Circuit abused its discretion in leaving the
district court with authority to allow for further
development of the record and modify the injunction as
appropriate.

16
IV.

This Case Is not a Proper Vehicle for
Reviewing Issues the Ninth Circuit did not
Already Resolve in Calvary’s Favor.

No evidentiary hearing has yet been conducted to
properly evaluate Directive 021, or any other Nevada
restrictions, beyond the straightforward legal issues
the Ninth Circuit already resolved by enjoining
Directive 021 and granting prospective injunctive
relief. The district court originally heard argument and
denied injunctive relief without prejudice in June 2020.
Since then, the parties have been entrenched in
appellate proceedings, which has not allowed for
development of a record addressing the evidentiary
burdens for injunctive relief under the guidance of
Roman Catholic Diocese.
Additionally, as the Ninth Circuit recognized,
changes to Nevada’s circumstances, which have evolved
significantly since Directive 021 issued in May, compels
a remand to allow for proper development of the record.
Pet. App. 2b n.1, 11b. Stated differently, unless this
Court is prepared to presume, without record evidence,
that a State can never establish proof that the public
interest in saving lives permits temporary numerical
limitations for attending in-person religious services,
granting certiorari here would not resolve this case.
Similar to what this Court has done in other cases,
this Court should allow the district court to resolve
issues beyond those the Ninth Circuit already resolved
in Calvary’s favor.

17
CONCLUSION
This Court should deny the petition.
Respectfully submitted,
AARON D. FORD
Attorney General of
Nevada
HEIDI PARRY STERN*
Solicitor General
CRAIG NEWBY
Deputy Solicitor General
JEFFREY M. CONNER
Deputy Solicitor General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record
Counsel for Respondents
January 19, 2021

